                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General


                                              Audit of Overtime Pay for
                                               Locally Employed Staff
                                            Assigned to Embassy Baghdad

                                         Report Number AUD/CG-11-47, September 2011




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                  UNCLASSIFIED


                   Spotlight: Audit of Overtime Pay for
                   Locally Employed Staff Assigned to
                   Embassy Baghdad
               Office of Inspector General

               AUD/CG-11-47


Why OIG Conducted This Audit                  Objective
OIG conducted this audit because              The primary objective of this audit was
OIG’s Office of Inspections reported          to determine whether Embassy
in July 2009 that internal controls for       Baghdad supervisors provided
overtime at Embassy Baghdad were              adequate internal controls over the
weak, leaving the embassy vulnerable          authorization and approval of overtime
to waste, fraud, and mismanagement.           pay for locally employed staff assigned
In addition, the Office of Audits             to Iraq.
reported in June 2010 that Americans
in Baghdad did not adhere to
requirements for supervisory
authorization of overtime, supervisory
approval of timesheets, or the
submission of complete and accurate
payroll information for pay.



What OIG Determined
OIG determined that American supervisors at Embassy Baghdad did not consistently
authorize overtime for locally employed staff in advance of the work performed,
locally employed staff presented incomplete and inaccurate documentation for
payment and submitted time and attendance directly to their home posts without
supervisory approval or oversight, and timekeepers were not adequately trained.




OIG Recommended
OIG recommended that Embassy Baghdad improve supervisory controls for
complying with Departmental regulations, policies, and procedures for authorizing
and approving overtime; ensure that current and future policies and procedures are
disseminated to posts; ensure that post timekeepers are better trained in payroll
procedures; and require that only a timekeeper or a supervisor submit time and
attendance information directly to the home post or the Bangkok Post Support Unit.
In addition, time and attendance documents should be uniform, complete, and
accurate.


                                  UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                             UNCLASSIFIED





Acronyms
Department   Department of State
FAM          Foreign Affairs Manual
FAH          Foreign Affairs Handbook
NEA          Bureau of Near Eastern Affairs
OIG          Office of Inspector General
T&A          time and attendance




                             UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................3 


Objective……. .................................................................................................................................5 


Audit Results ..................................................................................................................................5 

       Embassy Baghdad Supervisors Did Not Always Properly Authorize Overtime Hours ......6 

       Oversight Officials Did Not Always Comply With Time and Attendance 

              Regulations ..............................................................................................................7 

       Employees Did Not Always Ensure Time and Attendance Records Were 

              Accurate and Complete ............................................................................................9                     

       An Automated Timekeeping System Would Benefit Locally Employed Staff .................10 


Conclusions and Recommendations ..............................................................................................11 


List of Recommendations ..............................................................................................................16 


Appendices
      A. Scope and Methodology................................................................................................17 

      B. Example of Authorization Form Signed After Overtime Work Was Performed .........20 

      C. Example of Employee-Created Timesheet Without Lines for Signatures and Dates ..21 

      D. Example of Form Employee Signed as Both Employee and Supervisor .....................22 

      E. Example of Request for Leave Without a Name..........................................................23 

      F. Overpayments to Locally Employed Staff at Embassy Baghdad .................................24 

      G. Embassy Baghdad Response ........................................................................................26 

      H. Bureau of Resource Management Response ................................................................29 

      I. Response to OIG Formal Recommendations for Embassy Addis (Ababa)..................31 

      J. Embassy Caracas Response..........................................................................................32 


Major Contributors to This Report ................................................................................................33 




 




                                                          UNCLASSIFIED

                                               UNCLASSIFIED



                                           Executive Summary 

       In July 2009, the Department of State (Department), Office of Inspector General (OIG),
Office of Inspections, reported1 that internal controls for overtime at Embassy Baghdad were
weak, which left the embassy vulnerable to waste, fraud, and mismanagement. In June 2010,
OIG’s Office of Audits also reported2 that the embassy’s overtime program for Americans in
Baghdad did not adhere to requirements for supervisory authorization of overtime, supervisory
approval of timesheets, or the submission of complete and accurate information to Global
Financial Services in Charleston, S.C., which makes payments to employees.

        The primary objective of this audit was to determine whether Embassy Baghdad
supervisors provided adequate internal controls over the authorization and approval of overtime
pay for locally employed staff assigned to Iraq. Locally employed staff generally are non-U.S.
citizens3 working at a U.S. mission and are under chief-of-mission authority. In addition, OIG
determined whether home posts of origin for locally employed staff on temporary duty in Iraq
complied with Department time and attendance (T&A) policies and procedures. OIG found that
Embassy Baghdad supervisors for locally employed staff did not carry out their duties to
authorize overtime in advance, approve overtime, and validate and certify T&A reports.

        For 2008 and 2009, OIG determined that 444 locally employed staff assigned to Embassy
Baghdad claimed 248,135 overtime hours on their timesheets, totaling about $3.9 million, for
payment. Locally employed staff from 86 (32 percent) of 271 embassies, missions, consulates,
and offices were assigned to Iraq during this period. OIG determined that American supervisors
at Embassy Baghdad did not consistently authorize overtime for locally employed staff in
advance of work performed. In its review of 2,267 overtime records, OIG found that 96 percent
(2,174) of the records did not have the appropriate advance authorization for overtime, 84
percent (1,896) had no documentation, and 12 percent (278) had authorization for overtime that
was dated after the work was performed. All of these actions were contrary to Department
guidance. When documentation for overtime was submitted, the documentation was often
incomplete and inaccurate. For example, documentation often did not have supervisor and
employee signatures and information such as the number of hours to be worked and the pay
period and date in which the work was to be performed.

       T&A internal controls were weak because locally employed staff on temporary duty at
Embassy Baghdad provided timesheets and supporting documentation directly to their home
posts without having the appropriate supervisory approval or oversight. In addition, direct hires4
at Embassy Baghdad submitted T&A information directly to the Bangkok Post Support Unit.5
When supervisors sign T&A documents and return them to the locally employed staff, the

1
  Report of Inspection, Embassy Baghdad, Iraq (ISP-I-09-30A, July 2009).

2
  Audit of Embassy Baghdad Internal Controls for Overtime Pay (AUD/CG-10-25, June 2010). 

3
  “Locally Employed Staff” is the general term used for Foreign Service Nationals and Ordinary Resident

American-Citizen hire employees. [Source: Diplopedia]

4
  Direct hires at Embassy Baghdad are permanent staff hired directly by the embassy from citizens of Iraq, Egypt, 

and Jordan. 

5
  The Post Support Unit was created to assist Embassy Baghdad for payroll functions in order to lessen the 

administrative burden for an embassy operating in a war zone. 

                                                    1
                                               UNCLASSIFIED
                                        UNCLASSIFIED


potential exists for an employee to change the number of hours worked without approval. The
timekeepers at seven posts OIG reviewed processed overtime payments from T&A data that
were incomplete, did not have supervisory and employee signatures, and did not have the
required overtime authorization form. Further, 728 (32 percent) of 2,267 of the overtime payroll
records did not have timesheets to support the regular duty and overtime hours submitted for
payment.

        OIG determined that the post timekeepers were not adequately trained in timekeeping
duties concerning overtime and the unique demands of payroll benefits, for which locally
employed staff were eligible while serving in Iraq. Timekeepers made adjustments to timesheets
but were not able to validate reported overtime hours with Embassy Baghdad supervisors. Also,
the different procedures led to the use of different types of timesheets and overtime authorization
forms at each post. For locally employed staff serving in Iraq, three of seven posts made up their
own T&A forms that did not include the supervisory authorization, signature lines for
supervisors and employees, and dates.

        OIG also determined that the payroll system for employees serving in Iraq was not
efficient because payroll data was entered manually into Department payroll systems, which
increases the potential for error.

        During OIG’s January 2011 exit conference, management and financial officials at
Embassy Baghdad discussed improvements already underway to strengthen existing policies,
procedures, and internal controls for reporting overtime for locally employed staff. One
significant change will be to designate a timekeeper at the embassy who will validate the
completeness and accuracy of T&A documentation before the documentation is submitted for
payroll processing. Embassy Baghdad officials also stated that they would review the costs and
benefits of automating the manual payroll system and that they had initiated a review to
automate the payroll functions for American staff, as recommended in OIG’s June 2010 report.6

        OIG recommends that Embassy Baghdad improve supervisory controls for complying
with Departmental regulations, policies, and procedures for authorizing and approving overtime.
Greater coordination between Embassy Baghdad and home posts will be a critical element in
improving T&A internal controls, and embassy management officials need to ensure that current
and future policies and procedures are disseminated to posts that have locally employed staff
assigned to Embassy Baghdad. Use of the Department’s SharePoint application would provide a
means for the Embassy Baghdad management section to disseminate policies and procedures to
the financial centers for distribution to posts that have locally employed staff assigned to
Embassy Baghdad. Also, the embassy, in cooperation with the two Global Financial Services
centers, needs to ensure that post timekeepers are better trained in payroll procedures and require
that only a timekeeper or a supervisor submit T&A information directly to the home post or the
Bangkok Post Support Unit. In addition, T&A documents should be uniform, complete, and
accurate, and the process of entering data manually for T&A processes used by the embassy,
home posts, and the financial centers would be more efficient if they were automated. Posts
should make an attempt to recoup overtime overpayments.


6
    AUD/CG-10-25, June 2010.
                                             2
                                        UNCLASSIFIED
                                               UNCLASSIFIED

         Embassy Baghdad concurred with OIG’s recommendations for improving internal
controls and complying with Department regulations, policies, and procedures. Embassy
Baghdad’s corrective actions include the use of an electronic T&A that bypasses the employee
and is submitted by the supervisor directly to home posts and the Bangkok Post Support Unit.
Only one post agreed to review the amount of overpayments and unearned leave from locally
employed staff and seek reimbursement. Other posts indicated that it would not be cost effective
to seek reimbursement from employees or that labor laws limit the amount of reimbursement an
employer can seek from an employee. Looking forward, OIG believes that Embassy Baghdad’s
new procedures to use electronic media for processing payrolls will strengthen internal controls
and provide greater assurance to the home posts and the Bangkok Post Support Unit concerning
the accuracy of overtime and annual leave reported for locally employed staff serving in Iraq.

        OIG received responses to its draft report from Embassy Baghdad and the Bureau of
Resource Management (Appendices G and H, respectively). OIG also received responses from
Embassy Addis Ababa and Embassy Caracas (Appendices I and J, respectively), which provided
locally employed staff in Iraq and were visited by OIG. These responses were considered and
incorporated into the report as appropriate and are presented in their entirety as indicated.

                                                 Background

         Locally employed staff generally are non-U.S. citizens employed at a U.S. mission
under chief-of-mission authority.7 As of June 2010, the Department reported 42,916 locally
employed staff assigned to 271 embassies, missions, consulates, and offices around the world.
The Department offers locally employed staff worldwide the opportunity to serve the U.S.
Mission in Baghdad through long-term temporary duty assignments that allow overtime and
other special benefits that are not normally offered at their home posts. Other benefits include
night differential pay, meal allowances, and overtime. For locally employed staff on temporary
duty, compensation is determined by the staff’s home post Local Compensation Plan. Staff hired
directly by Embassy Baghdad (direct hires) are compensated through the Iraq Mission
Compensation Plan. The Local Compensation Plan consists of salary schedules and salary rates;
various types of benefit payments and premium pay rates; and other pertinent facets of local
compensation, including health insurance and bonuses. Depending on the country, some locally
employed staff receive vacation and holiday bonuses and other miscellaneous benefits.




7
 Locally employed staff use one of the following types of employment authorities: (1) direct-hire appointment (sec.
303 of the Foreign Service Act and 5 CFR 8.3); (2) Department of State personal services agreement or personal
services contract (22 U.S.C. § 2669(c) and (n)); or (3) an employing agency’s specific direct-hire, personal services
agreement, or personal services contract authority if that agency recognizes individuals hired under its authority as
employees.
                                                    3
                                               UNCLASSIFIED
                                            UNCLASSIFIED


       T&A records for all locally employed staff should be maintained in accordance with the
Foreign Affairs Manual (FAM), 4 FAM 500.8 The Foreign Affairs Handbook (FAH), 4 FAH-3
H-500,9 is issued pursuant to policy stated in 4 FAM 500 and contains the regulatory information
and procedures applicable to the areas of payroll and tax accounting. The FAH also includes
information on maintaining daily attendance and leave records and on computing, vouchering,
and paying salaries to U.S. citizen employees, locally employed staff, and personal services
contractors.

        The Foreign Service National Payroll Operations of Global Financial Services in
Charleston processes locally employed staff payroll from 120 foreign countries. Charleston is
also responsible for developing and disseminating financial operations policies and procedures.

        The Bangkok Foreign Service National Payroll Division processes locally employed staff
payroll for 60 countries, including direct hires at Embassy Baghdad. The Bangkok Post Support
Unit provides timekeeping functions for direct hires at Embassy Baghdad.

Prior OIG Reports on Embassy Baghdad Payroll and Overtime Issues

        In a June 2006 report,10 OIG’s Office of Inspections stated that “inordinate amounts” of
overtime were being claimed and recommended that internal controls for processing T&A
reports be strengthened. In addition, Charleston approved payments without properly prepared
timesheets and authorizations. The Office of Inspections recommended that an audit be
conducted of payroll procedures for Department employees in Baghdad.

       In response to the report, Global Financial Services in Charleston enhanced its
monitoring of Embassy Baghdad overtime, and the Bureau of Resource Management issued
Department Notice 2007 04 064, “Reporting Time and Attendance,”11 which reminded
timekeepers “to alleviate overpayment situations” and their “critical responsibility.”

         In the July 2009 report,12 the Office of Inspections stated that the embassy was not
enforcing a January 2008 mission policy on overtime and that Charleston did not adequately
verify supervisory approval of overtime worked. The Office of Inspections recommended that
Embassy Baghdad review procedures for managing and controlling overtime and review a
sample of T&A reports to determine whether an audit of overtime payments was merited. In
response to the inspection team’s work, Embassy Baghdad issued Mission Policy 050,
“Procedures for Reporting Time and Attendance, Leave, and Overtime,” on May 15, 2009. The
policy significantly strengthened Department payroll procedures for American personnel serving
in Iraq.

      In a June 2010 report,13 OIG’s Office of Audits stated that overtime for American staff at
Embassy Baghdad “appeared excessive” and internal controls on processing T&A reports

8
  4 FAM 500, “Payroll, Time and Attendance and Leave Accounting.” 

9
  4 FAH-3 H-500, “Payroll, Time and Attendance, and Leave Accounting.”

10
    Inspection of Global Financial Services Charleston (ISP-I-06-33).

11
   Department Notice 2007 04 064, April 13, 2007. 

12
   ISP-I-09-30A, July 2009. 

13
   AUD/CG-10-25, June 2010.

                                                 4
                                            UNCLASSIFIED
                                             UNCLASSIFIED


“needed to be strengthened.” American staff assigned to Embassy Baghdad during 2008 and
2009 submitted 777,888 hours of overtime, totaling $36 million. OIG found that T&A internal
controls were weak because supervisors did not always authorize overtime in advance and
Global Financial Services in Charleston processed payments from T&A data that were
incomplete and inaccurate and lacked required signatures and overtime authorization forms. As
a result of the audit, Embassy Baghdad revised Mission Policy 050 to cap overtime at 40 hours
per pay period unless otherwise authorized. Also, the embassy required standard forms
associated with the T&A and overtime pay reporting, monitored the number of overtime hours
worked, and requested supervisor explanations for excessive amounts of overtime pay.

                                                   Objective

        The primary objective of this audit was to determine whether Embassy Baghdad
supervisors provided adequate internal controls over the authorization and approval of overtime
pay for locally employed staff serving in Iraq and whether home posts of origin for locally
employed staff complied with Department T&A policies and procedures. (The audit scope and
methodology are detailed in Appendix A.)

                                              Audit Results

        Embassy Baghdad’s internal controls for authorizing and approving locally employed
staff overtime are weak because supervisors generally are not complying with Department
policies and regulations for authorizing, approving, validating, certifying, and submitting T&A
reports to payroll offices. Embassy Baghdad supervisors did not always comply with
Department payroll regulations14 to approve T&A based on actual hours worked and authorize
overtime in advance. Supervisors did not generally question the validity of T&A documents and
their compliance with Department payroll regulations15 before supervisors certified the
documents for payment. OIG also found that supervisors signed T&A documents that were
incomplete and inaccurate, which was contrary to Department supervisory requirements.16
Further, supervisors generally did not follow Department regulations17 in that they often allowed
locally employed staff to transmit their timesheets and other supporting T&A documentation
directly to timekeepers at their home posts or to the Bangkok Post Support Unit. According to
Departmental regulations,18 supervisors, not the employee, must ensure that approved T&A
reports are submitted to the servicing payroll office.

       OIG reviewed payroll processing at seven embassies that provided locally employed staff
who served in Iraq during 2008 and 2009. The embassies were Embassy Addis Ababa
(Ethiopia), Bangkok (Thailand), Caracas (Venezuela), Mexico City (Mexico), Rome (Italy),
Tunis (Tunisia), and Vatican City (Italy). As the main timekeeper for Embassy Baghdad, the


14
    4 FAH-3 H-525, “Attendance and Leave Function Responsibility,” requires supervisors to approve T&A reports 

based on actual hours worked, authorize overtime hours in advance of work, ensure the accuracy of T&A reports

before certifying them for payment, and submit T&A reports to the servicing payroll office. 

15
   4 FAH-3 H-525.2-2, “Ensuring Accuracy of Time and Attendance Reports.”

16
   4 FAH-3 H-525.2-3, “Reviewing and Approving of Time and Attendance Reports.”

17
   Ibid. 

18
   Ibid. 

                                                  5
                                             UNCLASSIFIED
                                                UNCLASSIFIED


Bangkok post support unit processes T&A data for Baghdad direct hires and maintains the
required supporting documentation.

         OIG discussed policies and procedures with four main timekeepers and 13 section
timekeepers at six of the seven embassies. OIG found that overall, timekeepers generally did not
validate, reconcile, and process payroll data and were not always properly trained in the
complexities of locally employed staff salary and benefits. Section timekeepers performed
timekeeping functions as part-time duties and, because of a lack of training, were not aware of
the time and attendance guidance for overtime contained in the FAM or the FAH. Section
timekeepers generally work in various embassy sections, such as the General Services Office,
Information Systems Technology, Office of Business Operations, Consular Affairs, and Human
Resources, and they are in positions such as truck driver, secretary, help desk assistant, and
analyst. Because timekeeping is assigned as an additional duty, timekeepers did not receive
frequent and adequate payroll processing training. 19

Embassy Baghdad Supervisors Did Not Always Properly Authorize Overtime
Hours
       In its review of the payroll process for locally employed staff serving in Iraq during 2008
and 2009, OIG found that Embassy Baghdad supervisors did not always authorize locally
employed staff overtime in advance of being worked, as required by Department regulations
such as the FAM and the FAH. In addition, Embassy Baghdad Mission Policy 050 states that
overtime must be approved “in advance” of being worked by completing Form DS-3060,
Authorization of Premium Compensation. Form DS-3060 is a standard Department form to
authorize, in advance, hours to be worked that are covered by overtime compensation but that are
not otherwise included in the employee’s permanent administrative workweek. The form should
be signed by both the employee and the supervisor and should be submitted with the relevant
timesheet to show authorization of the prior pay period’s overtime hours. Form DS-3060 is
required by the Department worldwide, and it has been used in its current edition since
November 2005.

        OIG found that of the 2,267 overtime records reviewed for locally employed staff, 2,174
records (96 percent) lacked the appropriate advance authorization for overtime. More
specifically, 1,896 records (84 percent) did not have the required Form DS-3060, and 278
records (12 percent) had the Form DS-3060 but the authorization for overtime was dated after
the work was performed. (An example of a post-dated authorization form is in Appendix B.)
Moreover, the Forms DS-3060 submitted were often incomplete and inaccurate, and they often
lacked supervisor and employee signatures and other pertinent information, such as the number
of hours to be worked, the pay period and date in which the work is to be performed, and the
signature of the authorizing official.

       Embassy Baghdad Mission Policy 050 was issued in May 2009, but it was addressed to
“All Department of State American Employees,” which could be misunderstood to mean that it
19
  4 FAH-3 H-519.3-2, “Training,” states, “Personnel engaged in pay, leave, and allowance activities must be
adequately trained in the documented policies and procedures applicable to the area to enable them to perform
operations efficiently, effectively, and economically and to identify and resolve inconsistencies in payroll related
information that is submitted, processed, and reported.”
                                                     6
                                                UNCLASSIFIED
                                       UNCLASSIFIED


did not apply to locally employed staff. In February 2010, Embassy Baghdad officials took
additional action in regard to Mission Policy 050 to reiterate the policy to team leaders
(supervisors) and make extremely clear their responsibility related to T&A reporting. In
response to the 2009 Office of Inspections report,20 Embassy Baghdad established an initiative to
identify the potential abuse of overtime hours, but it did not address compliance with supervisory
authorization for overtime for either American officers or locally employed staff or the use of
Forms DS-3060 included in Mission Policy 050.

Oversight Officials Did Not Always Comply With Time and Attendance
Regulations
        Embassy Baghdad supervisors, home post timekeepers, and the Bangkok Post Support
Unit staff did not always comply with Department T&A regulations. Supervisors did not always
approve and certify T&A documents, and timekeepers inappropriately allowed the employee
rather than the supervisor to resolve payroll discrepancies and adjust the amounts claimed for
overtime. OIG found that about one-third of the 2,267 overtime payroll records reviewed did not
have any timesheets to support the regular duty and the overtime hours submitted for pay. Home
post timekeepers and the Bangkok Post Support Unit processed T&A information for payment
without timesheets, thereby avoiding an important internal control procedure.

         Supervisors did not always comply with their responsibilities to ensure the accuracy of
T&A reports. Timesheets often lacked supervisor signatures, employee signatures, or date of
certification. Department guidance21 requires that supervisors review and approve T&A
documents. Further, the FAH22 states that “[s]upervisors are accountable for the accuracy of
T&A reports” and supervisors “must have a reasonable basis for verifying accuracy and
compliance with . . . controls.” In addition, OIG identified timesheets that supervisors had
signed in advance of a pay period, which was contrary to FAH guidelines23 and Embassy
Baghdad mission policies. These guidelines consistently assert that supervisory approval is an
important part of ensuring the propriety of T&A reports. Such approval indicates that the reports
are, to the best of the approving official’s knowledge, properly recorded and in compliance with
applicable legal requirements.

        Supervisory signatures on timesheets were not always sufficiently legible to allow post
timekeepers and the Bangkok Post Support Unit to identify and contact the Embassy Baghdad
supervisor to resolve any discrepancies. Moreover, timekeepers did not have a list of embassy
supervisors to contact regarding T&A questions. A legible signature or the supervisor’s typed
name on the T&A document is necessary to verify the existence of the supervisor for the
approval of adjustments. Maintaining an up-to-date record of supervisors is an essential internal
control, especially to follow up on payroll problems and adjustments. OIG found that
timekeepers inappropriately contacted employees rather than their supervisors to resolve
problems or discrepancies and made numerous adjustments to the T&A records without the
supervisor’s agreement, written certification, or documented reason for the adjustment. For

20
   ISP-I-09-30A, July 2009.
21
   4 FAH-3 H-525.2-3.
22
   4 FAH-3 H-525.2-2.
23
   Ibid.
                                            7
                                       UNCLASSIFIED
                                                UNCLASSIFIED


example, the Earnings and Leave Statement at one post showed that the post timekeeper had
made 28 adjustments, totaling over 393 overtime hours, that could not be traced back to the
timesheets or the Forms DS-3060. In another instance, the timekeeper, in making an adjustment,
overpaid the employee in two pay periods for 47 hours that were not earned or recorded on the
timesheet and did not have the approval of the supervisor. OIG provided detailed information to
post management on the improper payroll and payment actions, and post management agreed to
take actions to correct the situation.

        Timekeepers acknowledged that discrepancies and questionable entries occurred during
payroll processing but stated that time constraints often made it difficult for them to find the
appropriate Baghdad supervisor to resolve the question and make corrections in a timely manner
so the employee could be paid. OIG referred timekeepers to the Department guidance,24 stating
that changes made to T&A must be approved by an authorizing supervisor and that
documentation should be maintained regarding the adjustments or corrections.25

        Of 2,267 overtime payroll records, 728 records (32 percent) did not have timesheets to
support the regular duty and the overtime hours submitted for pay. Also, three of seven posts
made up their own T&A forms, which were incomplete and inaccurate. Furthermore, the
different types of timesheets used by locally employed staff and supervisors often lacked key
information, such as lines for supervisor or employee signatures and dates of certification (an
example is in Appendix C), and at least one employee signed both for himself and his supervisor
(an example is in Appendix D). Further, another employee used one timesheet for regular time
and one for overtime. OIG also noted that in some cases, employees prepared and submitted
duplicate timesheets for the same pay period. For example, on one timesheet, the employee
recorded pay periods 11 and 12, the next pay period recorded pay periods 12 and 13, and the next
pay period recorded pay periods 13 and 14. As a result, the employee reported overtime twice
for pay periods 12 and 13 and received the overtime payments.

        Home post timekeepers did not always adhere to internal controls for validating the
accuracy and completeness of T&A. OIG interviewed 20 timekeepers at the seven posts visited
and reviewed documents there, including 481 timesheets for 12 locally employed staff at four
posts. OIG found that 267 timesheets (55.5 percent) did not have the supervisor signature.
Other timesheets did not have the employee signature or the signatures of both the employee and
the supervisor.

        The embassy timekeepers often processed overtime payments from timesheets that were
incomplete, lacked supervisor and employee signatures, and did not have the required overtime
authorization forms. Inadequate training of timekeepers was the main cause for the internal
control weakness. Payroll personnel at six of the seven embassies reviewed had inadequate
experience in processing overtime documentation. OIG also found that timekeepers were
unaware of Department regulations and instructions from Global Financial Services in
Charleston for processing overtime. The lack of guidance resulted in the use of different
procedures and different standards for processing overtime for locally employed staff. Home
post timekeepers should not have processed payroll information for locally employed staff from

24
     4 FAH-3 H-526.1-3, “Adjustments.”
25
     4 FAH-3 H-523.3, “Proper Documentation.”
                                                     8
                                                UNCLASSIFIED
                                             UNCLASSIFIED


Embassy Baghdad without appropriate documentation. Such deficiencies have an adverse effect
on the Department’s efforts to be accountable for funding Embassy Baghdad operations.

        The Bangkok Post Support Unit, which serves as the timekeeper for Baghdad direct hires
and maintains their T&A documents, inadvertently weakened Department regulations for
supervisory approval of T&A reporting. In an effort to standardize overtime reporting, the Post
Support Unit, in March 2008, sent an email with links to required T&A forms. However, only
the second page of Form DS-3060 was included in the link. The first page is the authorization,
and the second page is a device for tracking only regular and overtime hours. Therefore, this
omission may have contributed to overtime records that did not have advance authorization for
the compensation of overtime. In addition, the same email advised locally employed staff that if
they did not have any exceptions, such as overtime and leave approvals, no timesheet was
required. OIG found that the lack of a required timesheet caused an overpayment error for a
locally employed staff member assigned to Embassy Baghdad. Specifically, the staff member
had resigned from the Department, but the Post Support Unit did not receive a notification to that
effect. The Post Support Unit automatically entered 160 regular duty hours, totaling more than
$1,758, for two pay periods for the individual, which resulted in actions being taken to collect
the overpayment.

        At the end of our audit work at the seven embassies included in this audit, we briefed post
officials on the details of overtime exceptions, including those at the Bangkok Post Support Unit.
Post adjustments, as summarized in Tables 1 and 2 of Appendix F, will result in repayment, if
cost effective, from locally employed staff for overtime and annual leave paid inappropriately.

Employees Did Not Always Ensure Time and Attendance Records Were
Accurate and Complete
       Locally employed staff generally did not comply with the requirements of the FAH,26
which state that “[e]mployees share responsibility with the timekeeper . . . in affirming the
accuracy and completeness” of hours reported on their timesheets. In addition to attesting to
hours worked, the employees should attest to all leave taken and affirm that “overtime, holiday,
and compensatory time reported was authorized and worked.” Of the 2,267 records reviewed,
OIG observed one or more of the following errors, omissions, and questionable entries listed
below for each T&A record reviewed.

       OIG identified errors, omissions, and questionable entries on T&A records, including the
following:

          Supervisors did not sign timesheets before locally employed staff sent the timesheets for
           payroll processing either at their home post or the Bangkok Post Support Unit.
          A locally employed staff member signed for the supervisor on the timesheet.
          Locally employed staff submitted duplicate timesheets, each with modified overtime
           hours, and requested overtime pay for hours that were not recorded on the timesheets.
          Locally employed staff used overlapping pay periods that did not correspond to the
           Federal pay periods.

26
     4 FAH-3 H-525.4-1, “Affirming Accuracy and Completeness.”
                                                  9
                                             UNCLASSIFIED
                                              UNCLASSIFIED



       	 Locally employed staff did not record leave on the timesheets and provide Office of
          Personnel Management Form 71, Request for Leave or Approved Absence.
       	 Leave slips were submitted without the name of the employee, and leave was not charged
          to the employee’s leave account balance. (An example of such a request is in Appendix
          E.)
       	 Locally employed staff used the incorrect overtime codes, resulting in improper
          payments.
        A locally employed staff member reported 22 hours of overtime for one day.
        A locally employed staff member submitted timesheets to the home post using two
          different names.

       According to the FAH,27 locally employed staff have the same three primary
responsibilities as American employees to certify the accuracy and completeness of their T&A
information:

           1.	 Employees are required to submit a leave application form to the supervisor for
               approval before taking leave.
           2.	 For other than regularly scheduled work, employees are required to sign their
               timesheets to verify the accuracy of the entries on that document. This verification
               does not constitute supervisory approval, which is still required.
           3.	 Each employee must review his or her Earnings and Leave Statement
               and promptly disclose any discrepancies to supervisors.

An Automated Timekeeping System Would Benefit Locally Employed
Staff
        The current payroll system for all employees assigned to Iraq is weak, and the home post
payroll offices do not comply with Department and Embassy Baghdad procedures for
authorizing, approving, and processing overtime for locally employed staff. Embassy
administrative operations have been limited in consideration of working in a war zone. The
manual reentry of payroll data at the home post and at the Bangkok Post Support Unit increases
the risk for error. A January 2003 Government Accountability Office report28 stated:

           [T]he most significant influence on changes to time and attendance reporting . . .
           is advancing technology and the accelerated adoption of automation driven
           largely by the need for increased efficiency, as promoted by the Government
           Paperwork Elimination Act.

        The report also emphasized that in applying available technology to achieve an effective
and efficient T&A system, there should first be strong internal controls in accordance with
applicable legal and other requirements.




27
     Ibid. 

28
     Maintaining Effective Control Over Employee Time and Attendance Reporting (GAO-03-352G, Jan. 2003). 

                                                   10
                                              UNCLASSIFIED
                                        UNCLASSIFIED

        In its June 201029 report on overtime pay for Americans serving in Iraq, OIG noted
payroll control weaknesses that are similar to those identified in this report. Many of the
processes were manual and lacked supervisory authorization and approval. OIG suggested that
Embassy Baghdad use a current Department system, the Web-enabled Time and Attendance
Electronic Application, or Web.TATEL. The browser-based application enables remote
timekeepers to record their data in the Web.TATEL database in Washington, DC, through the
Department’s OpenNet unclassified Web portal. OIG also identified the benefits from the
Windows Time and Attendance application used by posts to report payrolls to Global Financial
Services in Charleston and Bangkok. Embassy Baghdad officials agreed to review the use of
these automated payroll systems for American staff and stated that, based on this audit, it would
be appropriate to include locally employed staff in that analysis.

                                Conclusions and Recommendations
       Officials at both Embassy Baghdad and Global Financial Services in Charleston were, at
the time of OIG’s audit, strengthening overtime payroll procedures to improve the reliability of
T&A information and reduce the potential for fraud and abuse. The substantial number of
overtime hours reported as earned for locally employed staff in Iraq warrants full compliance
with Department regulations and post policies and procedures.

        Supervisors in Iraq perform a vital control function. They are responsible for complete
and accurate T&A reporting, and the scope of their responsibilities should extend to the
prevention and detection of improper payroll transactions. These supervisors have a more direct
knowledge of overtime hours worked by the individuals reporting to them. Similarly, each home
post and the Bangkok Post Support Unit need to improve their quality control duties, as outlined
in the FAH,30 to ensure that all T&A data received is authorized, approved, and accurate and that
all supporting documentation is included with the timesheets. To resolve discrepancies, home
post payroll personnel should obtain the Embassy Baghdad supervisor’s certification in writing

        In addition, manual functions of payroll processing are inefficient and lack sufficient
internal controls.

        Embassy Baghdad’s recent mission guidance can significantly improve internal controls
for overtime payroll processing of T&A for locally employed staff serving in Iraq. For example,
Mission Policy 050 was revised in November 2010 to further strengthen existing processes and
controls for reporting overtime. This revision includes designating an embassy timekeeper to
review and attest to the accuracy and completeness of T&A documents and forward the T&A
items to the appropriate payroll processing office for payment. Of particular significance is the
Embassy Baghdad reduction in the overtime cap from 60 hours to 40 hours per pay period.

        In December 2010, Embassy Baghdad published Mission Policy 027, “Locally Employed
Staff – Modification to Procedures for Reporting Time and Attendance,” for locally employed
staff on temporary duty and direct hires. According to Mission Policy 027, supervisors and
employees are responsible for ensuring that T&A information is accurate, timekeepers must

29
     AUD/CG-10-25, June 2010.
30
     4 FAH-3 H-500.
                                             11
                                        UNCLASSIFIED
                                       UNCLASSIFIED


ensure that premium time is authorized, and leave entries are based on standard forms required
by Department regulations. However, Embassy Baghdad did not include links to the standard
T&A reporting forms that are found in Mission Policy 050.

       During our January 2011 exit conference, Embassy Baghdad officials stated that
additional proposals were being considered to improve coordination with Global Financial
Services in Charleston, including creating a more compliant system for processing and reporting
overtime for Americans and locally employed staff.

       Embassies and the Bangkok Post Support Unit for Baghdad may obtain details on
overpayments for overtime and annual leave for locally employed staff from OIG if requested.

      Recent changes to Embassy Baghdad mission policies and other proposed internal control
enhancements may be significant elements in ensuring compliance with OIG recommendations.

       Recommendation 1. OIG recommends that Embassy Baghdad, Management Section,
       revise Mission Policy 027 to include the standard Department of State forms required for
       payroll processing, implement the revised Mission Policy 027 to improve supervisory
       controls for compliance with provisions of the Foreign Affairs Handbook (4 FAH-3 H-
       500), and highlight this information on the embassy’s intranet homepage.

       Management Response: The embassy concurred with this recommendation, stating that
       it “has begun the process of revising Mission Policy 027” to improve supervisory
       controls. According to the response, the modified policy will include one standard set of
       time and attendance forms (that is, timesheet, authorized Premium Compensation Form,
       and a leave form) that will be used by Iraqi locally employed staff, locally employed staff
       on temporary duty, and Third Country Nationals. The embassy further stated that the
       Department-required standard forms and electronic signatures “will be used to the extent
       possible.”

       OIG Reply: Based on the response, OIG considers the recommendation resolved. OIG
       will close the recommendation when OIG reviews and accepts documentation from
       Embassy Baghdad showing that the embassy has finalized and issued the proposed
       revisions to Mission Policy 027.

       Recommendation 2. OIG recommends that Embassy Baghdad, Management Section,
       use SharePoint to disseminate Mission Policies 027 and 050 and future updates to Global
       Financial Services in Charleston, SC, and in Bangkok, Thailand, for distribution to each
       post that has locally employed staff assigned to Embassy Baghdad.

       Management Response: The embassy concurred with this recommendation, stating that
       as of July 31, 2011, Mission Policies 027 and 050 had been added to the HRO (Human
       Resources Officer) selection of the Embassy Intranet Share Point Site.

       OIG Reply: Based on the response, OIG considers the recommendation closed, and no
       further action is required.

                                            12
                                       UNCLASSIFIED
                                UNCLASSIFIED


Recommendation 3. OIG recommends that the Bureau of Resource Management ensure
that Global Financial Services in Charleston, SC, and Bangkok, Thailand, take actions to
implement procedures that require post timekeepers to be trained in payroll procedures
specific for Embassy Baghdad.

Management Response: RM disagreed with the recommendation, stating that it
recommends that the Bureau of Human Resources and Embassy Baghdad “be the lead”
on training for timekeepers.

OIG Reply: On the basis of RM’s response, OIG considers the recommendation
unresolved. However, OIG acknowledges RM’s position, and OIG will contact the
Bureau of Human Resources and Embassy Baghdad to implement training for post
timekeepers in payroll procedures specific for Embassy Baghdad. OIG requests that RM
provide technical assistance in the review of this training. This recommendation can be
closed when the timekeeper training is initiated and RM provides technical assistance for
the training.

Recommendation 4. OIG recommends that Embassy Baghdad, Management Section,
require that only a timekeeper or a supervisor submit time and attendance information for
locally employed staff directly to home posts or to the Bangkok Post Support Unit.

Management Response: Embassy Baghdad concurred with this recommendation,
stating that it has established new internal control procedures to use electronic media for
processing payrolls.

OIG Analysis: Based on the response, OIG considers the recommendation resolved.
OIG will close the recommendation when Embassy Baghdad reviews and accepts
documentation showing the new internal control procedures to use electronic media for
processing payrolls.

Recommendation 5. OIG recommends that Embassy Baghdad, Management Section,
review the costs and benefits of automating the embassy’s manual payroll system
requirements for locally employed staff so that timesheets and supporting documentation
can be more economically and efficiently received and processed through Department of
State payroll systems.

Management Response: Embassy Baghdad concurred with this recommendation,
stating that it is using new automation and technology for submitting standard payroll
forms to the Post Support Unit at Embassy Bangkok.

OIG Reply: Based on the response, OIG considers the recommendation closed, and no
further action is required.

Recommendation 6. OIG recommends that the Management Officer for Embassy Addis
Ababa (Ethiopia) determine, if cost effective, the amount of locally employed staff
overtime and annual leave that was paid inappropriately and seek reimbursement.

                                     13
                                UNCLASSIFIED
                                UNCLASSIFIED


Management Response: Embassy Addis Ababa did not concur with the
recommendation, stating that it is “not a cost-effective request” to assign staff to review
documentation for five employees–two of whom have since resigned from their positions.
Additionally, according to the embassy, Ethiopian local labor law limits the amount of
reimbursement an employer can seek from an employee.

OIG Reply: OIG acknowledges the embassy’s position that the recommended action is
not cost effective and that the local labor law limits the amount of reimbursement an
employer can seek from an employee. Based on the embassy’s response, OIG considers
the recommendation closed, and no further action is required.

Recommendation 7. OIG recommends that the Management Officer for Embassy
Caracas (Venezuela) determine, if cost effective, the amount of locally employed staff
overtime and annual leave that was paid inappropriately and seek reimbursement.

Management Response: Embassy Caracas concurred with this recommendation.

OIG Analysis: Based on the response, OIG considers the recommendation resolved.
The recommendation can be closed when OIG reviews and accepts documentation
showing the results of the embassy’s determination, including any actions taken for the
reimbursement of overtime and annual leave that was inappropriately paid to locally
employed staff.

Recommendation 8. OIG recommends that the Management Officer for Embassy Rome
(Italy) determine, if cost effective, the amount of locally employed staff overtime and
annual leave that was paid inappropriately and seek reimbursement.

Management Response: In its electronic response to OIG, the embassy indicated that,
based on its review of applicable earnings and leave statements for the one locally
employed staff member cited in the report, the overtime hours were justified.

OIG Reply: Based on the embassy’s results of its review of the overtime hours for the
employee cited, OIG considers the recommendation closed, and no further action is
required.

Recommendation 9. OIG recommends that the Management Officer for Embassy Tunis
(Tunisia) determine, if cost effective, the amount of locally employed staff overtime and
annual leave that was paid inappropriately and seek reimbursement.

Management Response: The embassy did not provide a response to the
recommendation.

OIG Reply: Because Embassy Tunis did not respond to the recommendation, the
recommendation is unresolved. The embassy is requested to provide written comments
on the draft report and information on actions taken or planned for the recommendation.



                                     14
                                UNCLASSIFIED
                               UNCLASSIFIED


Recommendation 10. OIG recommends that the Bureau of Resource Management
ensure that the Bangkok Post Support Unit for Baghdad determines, if cost effective, the
amount of locally employed staff overtime and annual leave that was paid inappropriately
and seek reimbursement.

Management Response: RM did not concur with the recommendation “as stated.” RM
stated that the Post Support Unit “is not designed or resourced to conduct Post-specific
audit reviews” and that OIG “would be better suited to conduct this review.” RM further
stated that the recommendations should not have been addressed to Embassy Bangkok
because doing so “does not reflect accurately on the management or organization for GFS
PSU [Global Financial Services Post Support Unit] processing support.

OIG Reply: OIG acknowledges RM’s position concerning the role of the Post Support
Unit and the unit’s ability to conduct a review of locally employed staff overtime and
annual leave that may have been paid inappropriately. On the basis of RM’s response,
OIG considers the recommendation closed, and no further action is required. Embassy
Baghdad’s new procedures to use electronic media for processing payrolls will strengthen
internal controls and provide greater assurance to both home posts and the Post Support
Unit concerning the accuracy of overtime and annual leave reported for locally employed
staff serving in Iraq.




                                    15
                               UNCLASSIFIED
                                       UNCLASSIFIED



                                 List of Recommendations 

Recommendation 1. OIG recommends that Embassy Baghdad, Management Section, revise
Mission Policy 027 to include the standard Department of State forms required for payroll
processing, implement the revised Mission Policy 027 to improve supervisory controls for
compliance with provisions of the Foreign Affairs Handbook (4 FAH-3 H- 500), and highlight
this information on the embassy’s intranet homepage.

Recommendation 2. OIG recommends that Embassy Baghdad, Management Section, use
SharePoint to disseminate Mission Policies 027 and 050 and future updates to Global Financial
Services in Charleston, SC, and in Bangkok, Thailand, for distribution to each post that has
locally employed staff assigned to Embassy Baghdad.

Recommendation 3. OIG recommends that the Bureau of Resource Management ensure that
Global Financial Services in Charleston, SC, and Bangkok, Thailand, take actions to implement
procedures that require post timekeepers to be trained in payroll procedures specific for Embassy
Baghdad.

Recommendation 4. OIG recommends that Embassy Baghdad, Management Section, require
that only a timekeeper or a supervisor submit time and attendance information for locally
employed staff directly to home posts or to the Bangkok Post Support Unit.

Recommendation 5. OIG recommends that Embassy Baghdad, Management Section, review the
costs and benefits of automating the embassy’s manual payroll system requirements for locally
employed staff so that timesheets and supporting documentation can be more economically and
efficiently received and processed through Department of State payroll systems.

Recommendation 6. OIG recommends that the Management Officer for Embassy Addis Ababa
(Ethiopia) determine, if cost effective, the amount of locally employed staff overtime and annual
leave that was paid inappropriately and seek reimbursement.

Recommendation 7. OIG recommends that the Management Officer for Embassy Caracas
(Venezuela) determine, if cost effective, the amount of locally employed staff overtime and
annual leave that was paid inappropriately and seek reimbursement.

Recommendation 8. OIG recommends that the Management Officer for Embassy Rome (Italy)
determine, if cost effective, the amount of locally employed staff overtime and annual leave that
was paid inappropriately and seek reimbursement.

Recommendation 9. OIG recommends that the Management Officer for Embassy Tunis
(Tunisia) determine, if cost effective, the amount of locally employed staff overtime and annual
leave that was paid inappropriately and seek reimbursement.

Recommendation 10. OIG recommends that the Bureau of Resource Management ensure that
the Bangkok Post Support Unit for Baghdad determines, if cost effective, the amount of locally
employed staff overtime and annual leave that was paid inappropriately and seek reimbursement.

                                            16
                                       UNCLASSIFIED
                                              UNCLASSIFIED



                                                                                             Appendix A
                                       Scope and Methodology

        In following up on issues identified in the July 2009 Office of Inspections report Report
of Inspection, Embassy Baghdad, Iraq (ISP-I-09-30A), the Office of Inspector General (OIG)
conducted an audit of Embassy Baghdad internal controls for overtime for 2008 and 2009 in two
phases. During the first phase,1 from October 2009 to June 2010, OIG reviewed overtime pay
for Americans at Embassy Baghdad. During the second phase, OIG conducted the audit of
overtime pay for locally employed staff, which resulted in this report. Department of State
guidance governing the authorization and approval of overtime is similar for Americans and
locally employed staff; however, the payroll processes are different.

        To meet the audit objective, which was to determine whether Embassy Baghdad had
adequate internal controls over the authorization and approval of overtime for locally employed
staff on temporary duty in Iraq, OIG verified compliance with requirements contained in the
Foreign Affairs Handbook (FAH), 4 FAH-3 H-500, “Payroll, Time and Attendance, and Leave
Accounting.”

       OIG obtained the overtime payroll and time and attendance (T&A) data for the period
January 1, 2008, through December 31, 2009, from Global Financial Services in Charleston, SC,
and Bangkok, Thailand. From a universe of 248,135 overtime hours incurred during this period,
OIG judgmentally selected for review 2,267 overtime records supporting 29,805 (12 percent)
overtime hours. The audit sample included $468,891 in locally employed staff overtime
payments, or about 12 percent, of the approximate $3.9 million earned during this period.

        OIG’s sample of 2,267 overtime payroll records came from seven overseas posts,
representing four Department geographical bureaus. Posts were chosen that had at least five
locally employed staff serving in Iraq who had accrued overtime in 2008 and 2009, including
staff who had the highest numbers of overtime within a pay period.

       OIG compared the sample selection with records in the Foreign Service National payroll
system and with employee Earnings and Leave Statements of hours worked and paid. In the
review of T&A records, OIG tested internal controls over timesheets and supporting
documentation, including compliance with use of Form DS-3060, Authorization of Premium
Compensation.

        OIG analyzed Department policies and procedures for T&A, including overtime pay;
Embassy Baghdad mission policies and procedures; Charleston policies and procedures; and
other relevant Federal laws, regulations, and standards. OIG obtained and reviewed payroll
records from the two Global Financial Services centers.

       OIG conducted fieldwork in Washington, DC, at the Bureaus of Resource Management
and Near Eastern Affairs and overseas at Embassies Addis Ababa (Ethiopia), Bangkok
(Thailand), Caracas (Venezuela), Mexico City (Mexico), Rome (Italy), Tunis (Tunisia), and
Vatican City (Italy) and at the Bangkok Post Support Unit. OIG reviewed the payroll policies

1
    Audit of Embassy Baghdad Internal Controls for Overtime Pay (AUD/CG-10-25, June 2010).
                                                   17
                                              UNCLASSIFIED
                                       UNCLASSIFIED


and procedures at the seven embassies and the Post Support Unit from June through September
2010. OIG also interviewed embassy officials responsible for preparing, verifying, and
processing overtime pay and maintaining the documentation to support overtime hours reported
and paid by the Department. OIG briefed officials on the results of fieldwork. OIG also
interviewed four full-time timekeepers and 13 part-time section timekeepers who were assigned
timekeeping functions as an additional duty. Throughout the audit, OIG contacted Embassy
Baghdad officials for background and other financial and payroll information. The Bangkok
Post Support Unit serves as the timekeeper for Baghdad direct hires and maintains their T&A
documentation.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. OIG obtained sufficient evidence that provides a reasonable basis
for the findings and conclusions based on the audit objective. If additional procedures had been
performed concerning other pay, benefits, and allowances, other matters may have come to
OIG’s attention and would have been reported. The audit was performed by OIG’s Office of
Audits, Contracts and Grants Division, between June 2010 and January 2011.

       In December 2010, OIG briefed officials from the Bureau of Near Eastern Affairs and
Global Financial Services Center in Charleston on the report’s findings and proposed
recommendations. OIG provided a similar briefing to officials at Embassy Baghdad in January
2011.

        Embassies Baghdad, Addis Abba, Caracas, and Rome and RM responded to the 10
recommendations in OIG’s draft report. Based on the responses, OIG considers five
recommendations closed upon issuance of this report; three recommendations resolved, pending
further action; and two recommendations unresolved. OIG’s replies to managements’ responses
are presented after each recommendation.

Review of Internal Controls and Automated Systems

       OIG determined that internal control weaknesses existed because of noncompliance with
Department of State regulations. T&A records generally were not properly authorized,
approved, and documented. As highlighted in this report, home post timekeepers and the
Bangkok Post Support Unit should not have processed T&A information for payment without
timesheets.

        The audit identified a variety of errors, omissions, and questionable entries on T&A
records. In evaluating internal controls, however, OIG limited the audit to the authorization and
payment of overtime and the controls over the payroll process. OIG did not attempt to validate
the justification for employee overtime or the completion of requirements for overtime pay.

        During the audit, OIG’s Office of Investigations arrested an Embassy Baghdad locally
employed staff member who allegedly had transferred about $240,000 in U.S. Government funds
into his spouse’s bank account. OIG noted that the suspect, while working in Baghdad during
2008 and 2009, had reported 2,500 hours of overtime and received $25,000 in overtime pay,
                                            18
                                       UNCLASSIFIED
                                      UNCLASSIFIED


which was among the highest amounts of overtime identified in the audit. This information was
relayed to the Office of Investigations.

Use of Computer-Processed Data

   The audit used computer-generated data from the Global Financial Management System
(GFMS). OIG obtained GFMS data from the Global Financial Services centers in Charleston
and Bangkok. OIG compared data from the GFMS Foreign Service National payroll systems
with information reported on T&A forms for Embassy Baghdad locally employed staff. The
audit covered both regular and overtime payroll data. OIG determined, based on the source
documents selected in the judgmental sample, that GFMS and the Foreign Service National
payroll systems were reliable




                                           19
                                      UNCLASSIFIED
                                                              UNCLASSIFIED



                                                                                                                                   Appendix B




                 Example of Authorization Form Signed After
                      Overtime Work Was Performed



                                                         OvC!rtim e Auth o riz a ti o n Fo r m

                                       r",.~",. ,      .... ~.i~m.c,t     c~,,'.,                          ISO 9~O: . 2000
                                       1t~ly                                                              Q~~ ' ''y "'S>It~ nct




            Deleted OV 01( ;                                                                   I'
         3.    Ol'l\cc/ U ~"
            "0
                                                           Authori~ .. t      ion t o work o v e rt ime

    ,    D.'~~
        ~<     15. ~005                  \~ :OO
                                                1rom

                                                             ~lOO
                                                                    ".
    V-JoecH.=                            19:00               1]-00

    '1/ Oe: l a. 2004                    ,9,00               n~


     I Ceo     ,~.   2001                ,,~                 : 800
    ,   ~ 1'.:OO'                                         - Ii":I:oo
    ,
                                        ~1,cc.


        (.'>o.on     }~.                "'00                 2'-00
    ,   0-     ~~


    "' o.c 1~. x,o.,
                     ::>OOa              'Oo.(lO

                                        oa-co                2"00                                                             ..
i       ~n. =a                           '3.00               .. 00

        Ooc n. 2(lOB                    07.00                  '00
"
V o.c 2", 2C1<>a
,       Doc   3~.    2008
                                        11.00                ,~,OO



                                                             \ ~.o;..;J
                                         '3.00

 ..; 1000 " ."Or04                     i'H'J                 noeo

J        ,0>      =.                    oa·oo                18   eo


              l", o,"v •• • ,~ ".~.., .            I
        •
                          ..
              S.gn ....... .,. <Mo.'
              ~......."        ,~~ ~"""'''' .
                                                   V




                                                                   20 

                                                              UNCLASSIFIED
                  UNCLASSIFIED




                                                                    Appendix C

Example of Employee-Created Timesheet Without Lines
             for Signatures and Dates




  .'




             <          Timesheet h8 5 no s ilol"alurc: block for
                        supervisor or employee, arid no
             <          blocks for da'cs.




                       21
                  UNCLASSIFIED
                                                                     UNCLASSIFIED



                                                                                                                                                                                Appendix D




Example of Form Employee Signed As Both Employee and Supervisor




                                                       Premium Pay Request Form
   c••~' " "..... "".

                                                                        T.." .... "...     11)~' .....Jt>\OI(,1
                                                                       ,~


                                                                       ,    ..


         ,,,"' ................. ,, ......................... , . . . . _        .......... . . . . .,,.,,,,,,, _ _ . .. 0< .......... _", ••• , .. • " ..... ' ........... .




                                                                 ,:-n. ,"




                                                                          22 

                                                                     UNCLASSIFIED
                                                                         UNCLASSIFIED



                                                                                                                                                                                                                Appendix E




                             Example of Request for Leave Without a Name


                                                              R equest for Leave Or Approv ed A bsenc::




_. . ... ..........,
,"',...,:., "'
         <o~   .",_
                                                                                                                                         I,
                                                                                                                         '0.. ' ~ If .~~~a'                  "".e   ';C> "' . ... '" ..., . _,""'-,

                                                                                                                              56                                                                           ..
                                                                                        .~


                                                             : .. " 1}, lOO9      .:)""'<) Jl~                                           r:~-:I~.::~~,':'~:;~~:,:~~-;u
C~ .."''''' ........... ''. _ .
CI.<:<>r>Ct ................".

O~'O: ...... ·"· ,....                                                                                                                    o ~;1'.:!~ ".r:~:;,:.;r·;;.7.2i
Du.. "'«><i .......
                                                                                                                                          o 8"'''.....~ ~..-='., ""'.
                                                                                                                                          o ~;.,~::, :~~~~:."~~"o."~.'e'"
                                                                                                                                          o Sa.~ "".~.~                .O'l~ ""'""",,"'" 1)/




1.      c , ,,,r«. u~": I c.rtlf'\' """ ,n,           '<>a.,'''''.':'
                                                      ,t<:e>e""".:.ov.;o f~t ,,~. wr";>O.*!s) ~ <~l.C 'u"".'"o.'''                                               t",. " "'u" <on\;>I~ ""II> ""
                                                                                                ':».e...,..                                                            in<;I",,"" "'14.:.41
_.      • ..,; J>y_"S .]On~ . j)f~'" '''' f"''''' ~"'i IU ...... :;:<ov...,      (.r~ P" r ~ .JCwor,.l "~ ... r .r.... ~n
        :~=.;:-;:::-:: ~;'~;r.•· ,.·.~.,.~" o!,c~o~.t. '''~r "". ~r- ' '' '''\1'~~ -.c>. to. ~~"'."!..'Y . :::"'"                                                     =.><1,... ,lin""'"
                                                                                                                                                                     j~,!       J oog


                                                                                                                            I" ;!'''X'o,,~ gu.                ,u.""      If . ,,,"~,,~' ,. •• "
                                                                                                                            "'.."' ''~ .~r">,, I~ 'u~"",,~ ...J




p,;,,,.        ~<'   S,. ..",.",
So"''''''      G'I1 ~·".", ~ w ,,~.j
• -.: . ..... ~.,.."" ~~ ,..o •• ~.= •• ~~
                                                s,.,.. .:"" .    ~ ~""' ~u c~~..""y
                                                          .,, ~~ ",o-y" _ ~'       " ...
                                                                                             ,! 1M -" !,...,,~,,~
                                                                                            "~~.=:-  .•   c,o;.~",
                                                                                                                    ......  ;'"'-',.,.
                                                                                                                      ... o· ,..,.
                                                                                                                                         un~'
                                                                                                                                   ",:."",~ ~"') ~
                                                                                                                                                    .., ..   -':>o-.o:"~,,      "" ~ .~'';.'''''~"
                                                                                                                                                                    ,:" ,e. Dol;>.>""'''' ,'
l.=~' .. ·.-
..... , -i • . "
                     ='>04 ..
                                  '" r l~ ~·.  V..      '.'~'"
                                                                ••:... .,.,.:-
                                      ~. <03 .... .... ="""'=-- ~
                                                                  ~. ~
                                                                       '*~~'~-.q
                                                                           a ...... ft.
                                                                                       1."'= ~.,~ o "'_'. "
                                                                                          U'",,, '.... , .; a , ,- :c a P.,..·.,
                                                                                                                 ceoa " . s,."                     "   ."'>",- e'., .;:n'*'u......
                                                                                                                                                     ~:o .. ~. "=> I.IA ",,'-"'''-._'
                                                                                                                                                                                                  o 'l'..::~

. . . . ~~¥     '~ y' ~; .""" ;.o....,:.' .• ,
              .","r.                                    'w'·.
                                                       ~l ~ ~<>- .: ;.~                 " ;:.s.t-. "''''~,:.n 0 : Coo ~_ ~ ...".n." .....      ~. 1-~."     ••           u~- v..,." :."",u""-"
•• '   """"-;/"'0' t.,. ..... ~·.,>·..., .N~· .. :~~'" ,~ "c--,,_,~              "'"       OI:",~ 0' "",.",...1"' .. r~.o ..... ·: C. '''"'   :;. • • ~ .•, ~ :.c......., :.-~ OK.............• L....
... ,.-",.,~ os ·. C. '0-'''' .-__ ~'u,,<>'
,,:-'0'"               ,;~   ..   ~-.
                                                         ,. ,._., • • • -"' ....... ".,.,.. "',.,. o.".,~ S ...... : ~, =.,.."'.,,~"" "         - ""n'·c,,..,        ~· "c   '-' , ... :lO'>t-,""",, ,<t. '0'




                                                                              23 

                                                                         UNCLASSIFIED
                                          UNCLASSIFIED


                                                                                                Appendix F

       Overpayments to Locally Employed Staff at Embassy Baghdad

   During its audit, the Office of Inspector General determined, for locally employed staff at
Embassy Baghdad, the amount of overpayments for overtime (Table 1) and for annual leave
(Table 2).

             Table 1. Embassy Baghdad Overpayments for Overtime

                                     Total            Overtime           Percent of
                                     Hours             Hours            Overpayments
                     Post           Reviewed          Overpaid             by Post

               Addis Ababa                4,290                 441                  10.28

               Baghdad*                 11,637                  111                    0.95

               Caracas                    4,342                    2                   0.05

               Mexico City                3,146                    1                   0.03

               Rome                       3,935                    2                   0.05

               Tunis                      2,326                    0                   0.00

               Vatican City                 129                    0                   0.00
                         Total          29,805                  557 (1.87% of total)
           [Source: OIG review of individual payroll records of locally employed staff, which
           included timesheets, Forms DS-3060, Forms OPM 71, and Earnings and Leave
           Statements when available.]
           *The Bangkok Post Support Unit serves as the timekeeper for Baghdad direct hires
           and maintains their T&A documentation.




                                               24
                                          UNCLASSIFIED
                                UNCLASSIFIED





Table 2. Embassy Baghdad Overpayments for Annual Leave
                         LES*               LES With
                      Reviewed by          Annual Leave             Annual Leave
      Post               Post                Errors                Hours Overpaid
Addis Ababa                     5                            0                         0
Baghdad **                     56                            2                        48
Caracas                        11                            0                         0
Mexico City                     5                            0                         0
Rome                            6                            1                        56
Tunis                           5                            1                        94
Vatican City                         1                       0                         0
     Total                          89                       4                       198

 [Source: OIG review of individual payroll records of locally employed staff, which
 included timesheets, Forms DS-3060, Forms OPM 71, and Earnings and Leave
 Statements when available.]
 *LES: leave and earnings statements.
 ** The Bangkok Post Support Unit serves as the timekeeper for Baghdad direct hires and
  maintains their T&A documentation.




                                     25
                                UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                                         Appendix G




                                           UNCLASSIFIED




MRN :                          11 BAGHDAD 1968
Date/DTG:                      Aug 12, 2011 / 121129Z AUG 11
From:                          AMEMBASSY BAGHDAD
Action:                        W ASH DC, SECSTATE ROUTINE
E.O.:                          13526
TAGS:                          AFIN , AFSN, APER
Captions:                      OIGCHANNEL
Subject:                       Response to OIG Audit Report on T&A for Baghdad




1. Summary. Embassy Baghdad reviewed the draft report on the " Audit of Overtime Pay for Locally
Employed Staff Assigned to Embassy Baghdad," This message contains our responses to
recommendations 1, 2, 4, and 5 to correct the noted deficiencies and internal control weaknesses
associated with the Mission' s current Locally Employed Staff (LES) Time and Attendance (T&A) process.
Any further questions or inquiries to these responses should be sent to post via front channel cable or
record email. End Summary.

2. Recommendation 1- OIG recommends that Embassy Baghdad, Management Section, revise Mission
Policy 027 to include the standard Department of State forms required for payroll processing,
implement the revised Mission Policy 027 to improve supervisory controls for compliance with
provisions of the Foreign Affairs Handbook ( 4 FAM·3 H·SOO), and highlight this information on the
embassy's internet homepage.

3. Post Response to Recommendation 1- Post concurs with this recommendation. Post has begun the
process of revising Mission Policy 027 to include one standard set ofT&A forms that will be used by Iraqi
LE Staff, LE StaffTDYers, and Third Country Nationals (TCNs). This includes: a time sheet, an authorized
Premium Compensation form to be approved in advance of work being performed, and a Leave form.
All forms will include electronic signatures to the extent possible.

4. For improvements in supervisory controls, all Iraqi LE Staff, LE Staff TDYers, and TCNs will be required
to use the new standardized forms and submit them electronically to their American·direct hire
supervisors for signature. The American direct·hire supervisors will forward the approved forms to the
newly created Time and Attendance Coordinators in every embassy section that employs LE Staff, LE
Staff TDYers, and TCNs. Each section' s Time and Attendance Coordinator will upload T&A
documentation to a newly created SharePoint site that will be reviewed by a newly created Main Time
and Attendance Coordinator in the Human Resources Office (HRO). The Main Time and Attendance




                                            26 

                                       UNCLASSIFIED
                                       UNCLASSIFIED





Coordinator will alert FSN Payroll Bangkok when the bi-weekly T&A documents are ready for review and
processing. Any discrepancies will be resolved among the Main Time and Attendance Coordinator, the
section's Time and Attendance Coordinator, and relevant employees and supervisors before T&A
documents are uploaded to the SharePoint site.

5. The actual input ofT&A data into approved overseas T&A software will remain offshore and be
processed by PSU Bangkok. Once T&A has been input, PSU Bangkok will send post the DS-1734, Time
and Attendance Report, for review and signature by section. Once those reports are formally signed by
the section's supervisor, the originals will be uploaded to the Share Point site for PSU to have access and
each section's Time and Attendance Coordinator will upload a copy with applicable pay period
documentation to the Share Point site.

6. We will post all relevant material to the Mission Iraq intra net (not Internet as stated in the
recommendation) page. Embassy management will add these new internal controls to Mission Policy
027 and highlight the revised policy under the Embassy Announcements section on the main page of the
intra net site.

7. Recommendation 2 - OIG recommends that Embassy Baghdad, Management Section, use
Share Point to disseminate Mission Policies 027 and 050 and future updates to Global Financial Services
in Charleston, SC, and Bangkok, Thailand, for distribution to each post that has locally employed staff
assigned to Embassy Baghdad.

8. Post Response to Recommendation 2 - Post concurs with this recommendation. Mission Policies
027 and 050 have been added to the HRO section of the Embassy Intranet Site as of July 31,2011, which
is also a SharePoint Site. The Embassy will clear the revised Mission Policy 027 with the Post Support
Units in Charleston and Bangkok. As with all Mission Iraq policies, the revised policy will be posted to
the Embassy's SharePoint site for easy reference. We will encourage PSU Charleston and Bangkok to
reference this site by link when communicating with other embassies that have TDY LE Staff temporarily
assigned to Embassy Baghdad. Additionally, the Embassy will work with the Coordinator of the LE Staff
TDY Iraq Program in NEA-SCA/EX to incorporate links to the revised Mission Policy 027 in the
information passed to posts when their LE Staff are assigned TDY to Mission Iraq.

9. Recommendation 4 - OIG recommends that Embassy Baghdad, Management Section, require that
only a timekeeper or a supervisor submit time and attendance information for locally employed staff
directly to home posts or the Bangkok Post Support Unit.

10. Post Response to Recommendation 4- Post concurs with this recommendation. Revised Mission
Policy 027 will contain the following revised internal controls: 1) for Bahgdad LE Staff and TCNs, the
Main Time and Attendance Coordinator in HRO will alert FSN Payroll in Bangkok when all the
documentation is uploaded to a newly-designed SharePoint site for review and access: 2) for LE Staff
TDYers assigned from other countries, the section Time and Attendance coordinator will electronically
pass approved timesheets for LE StaffTDYers to an approved T&A focal point at their home embassy.
American supervisors in Baghdad will be copied on any record e-mails to confirm LE StaffTDYer T&A
data is being transmitted in accordance with the revised policy.

11. Recommendation 5 - OIG recommends that Embassy Baghdad, Management Section, review the
costs and benefits of automating the Embassy's manual payroll system requirements for LE Staff so that




                                            27 

                                       UNCLASSIFIED

                                     UNCLASSIFIED





timesheets and supporting documentation can be more economically and efficiently received an d
processed through Department of State payroll systems.

12. Post ResoD",!! to Recommsndat!0n 5 Post concurs with this recomm endation with the (dIveat
that T&A processing must remain offshore to minimize the risk and cost associated with adding staff to
Mission Iraq to perform transaction work. The addition of electronic signatures to standardized forms
may take time to complete. We are aware of s.ever~1 automated applications in u!;t> by N€A-SCA/EX that
incorporate process flow management, electronic signature and uplOoilded documentation. We will seek
support from our Executive Office as we seek to automate and streamline the T and A process to
improve internal cont rols and cut workload. The response to recommendation 1 further describes the
new in ternal controls to be built into this process and any new automation and technology that will be
used to automate this process.

13. Emba~y Baghdad invites the Global Fj~ncial Services Bangkok (GFSB) FSN Payroll division to visit
Embassy Baghdad to assist with the implementation of revised Mission Policy 027 and to conduct T&A
training for newly designated timekeepers.



Signature:

Drafted By;                   BAGHDAC
Cleared By:                   MGT'
Approved By:                  MGT
Reli!<lsed By:                BAGHDAD
Info:

Attachments:                  Metadata dal

Action Post:
Dissemination Rule:           Release<! CoP'!

                                          UNCLASSIFIED




                                          28 

                                     UNCLASSIFIED

                                 UNCLASSIFIED



                                                                                      Appendix H




                                                  United States Department of State
                                                  Global Financial Services
                                                  P.O. Box 150008
                                                  Charleston, SC 29415-5008
                                                  PH : 843-308-5576


                                                   AUG 03 2011
UNCLASSIFIED

MEMORANDUM

TO:                    (b) (6)

                       (b) (6)
FROM:

SUBJECT: OIG               on        (Tv(rrtinne Pay for Locally Employed
         Staff Assigned to Embassy Baghdad

In response to the Office of Inspector General's Draft Report on Audit of Overtime
Pay for Locally Employed Staff Assigned to Embassy Baghdad, Global Financial
Services (RMIGFS) offers the following responses.

Recommendation #3 states " OIG recommends that the Bureau of Resource
Management ensure that Global Financial Services in Charleston, SC, and
Bangkok, Thailand, take actions to implement procedures that require post
timekeepers to be trained in payroll procedures specific for Embassy Baghdad."

Response: RMlGlobai Financial Services (RMIGFS) does not concur with the
recommendation as stated. RMlGFS recommends that the Bureau of Human
Resources (HR) and Embassy Baghdad be the lead in this effort to provide training
for time keepers. RMlGFS is willing to work with HR and Embassy Baghdad to
assist in theirs, as needed.

Recommendation # 10 states " OIG recommends that the Bureau of Resource
Management ensure that the Bangkok Post Support Unit for Baghdad determines,
if cost effective, the aroount of locally employed staff overtime and annual leave
that was paid inappropriately and seek reimbursement."

Response: RMlGFS does not concur with the recommendation as stated.
RMlGFS PSU is not designed or resourced to conduct Post specific audit reviews,
as recommended. The OIG Audit Division would be better suited to conduct this
specific review. In addition, the GFS Post Support Unit in a single virtual




                                      29 

                                 UNCLASSIFIED
                             UNCLASSIFIED





processing unit with locations in Charleston, Bangkok, and Sofia, under the direct
management orthe RM Bureau. Any recommendations concerning the Post
Support Unit should be addressed to RM Global Financial Services. Addressing
any recommendations to Bangkok PSU or the Bangkok Embassy does not reflect
accurately on the management or organization for GFS PSU processing support.

GFS appreciates the oPpol1unity to comment on the report . The operational point
of contact is               He may be reached by emaIl al




                                  UNCI ASSIFIED




                                  30 

                             UNCLASSIFIED

                                    UNCLASSIFIED



                                                                                                     Appendix I 





Response to OIG Formal Recommendations for Embassy Addis


Recommendation 6: OIG recommends that the Management Officer for Embassy Addis Ababa
(Ethiopia) determine, if cost effective, the amount of locally employed staff overtime and annual
leave that was paid inappropriately and seek reimbursement. (Action: Embassy Addis Ababa)

Response: Post does not concur. First, this is not a cost-effective request. Post has determined
that in light of all the issues with properly reporting overtime hours from Baghdad that it is not
cost effective to assign staff to research through three years worth of documentation for the five
employees that served in Baghdad. Second, two of the five employees have since resigned from
Embassy employment, thus post would not be able to seek reimbursement.

Third, Ethiopian local labor law places limitations on seeking reimbursement from employees
for any kind of payment. Part ten, chapter one, paragraph one of the Ethiopian labor law
regarding limitation states: "Unless a specific time limit is provided otherwise in this
Proclamation or other relevant law, an action arising from an employment relationship shall be
barred by limitation after one year from the date on which the claim becomes enforceable".
Additionally, Paragraph four of the Ethiopian labor law also states: "Any claim by a worker or
employer for any kind of payment shall be barred by limitation unless an action is brought within
six months from the date of termination of the contract of employment (Part 10, chapter 1,
paragraph 4). In regards to paragraph four of the Ethiopian labor law, the termination of the
employment contract with Baghdad ended more than a year ago for all of the Employees. Thus,
due to time limitation, the Embassy is barred from seeking reimbursement from the employees.




                                         31 

                                    UNCLASSIFIED
                                         UNCLASSIFIED



                                                                                                Appendix J




                                           Embassy of the United States of America

                                                       Caraca.'I, Vene.::;uela

         Memorandum

         Date: August 17, 2011

         From:

         To:
               (b) (6)
         Subject Comments on "Audit of Overtime Pay for Locally Employed Staff Assigned to
         Baghdad"

$"",,;   Post has reviewed subject draft report, and specifically recommendation 7. We concur
         with the recommended action, and thank your team for the visit.




                                              32 

                                         UNCLASSIFIED
          UNCLASSIFIED


                         Appendix K




(b) (6)




               33
          UNCLASSIFIED
                                  UNCLASSIFIED



                         Major Contributors to This Report
Richard Astor, Audit Director
Contracts and Grants Division
Office of Audits

Carolyn Jones, Audit Manager
Contracts and Grants Division
Office of Audits

Brian Jones, Senior Auditor
Contracts and Grants Division
Office of Audits

Patrick Sampson, Senior Auditor
Contracts and Grants Division
Office of Audits




                                       33
                                  UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
